<html>
<title> - THE WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







           THE WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2015

                               __________

                           Serial No. 114-35

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-992 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
        Jennifer Hemingway, Government Operations Staff Director
               Chris D'Angelo, Professional Staff Member
                        Melissa Beaumont, Clerk
                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 16, 2015...................................     1

                               WITNESSES

The Hon. David S. Ferriero, Archivist, National Archives and 
  Records Administration
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. Manuel Ehrlich, Board Member, U.S. Chemical Safety Board
    Oral Statement...............................................    20
    Written Statement............................................    22
Ms. Catherine V. Emerson, Chief Human Capital Officer, U.S. 
  Department of Homeland Security
    Oral Statement...............................................    25
    Written Statement............................................    27
Mr. Robert Goldenkoff, Director of Strategic Issues, U.S. 
  Government Accountability Office
    Oral Statement...............................................    30
    Written Statement............................................    32

                                APPENDIX

U.S. Environmental Protection Agency Statement for the Record, 
  Entered by Chairman Mark Meadows...............................    82
Letter from Secretary Jeh Johnson to Chairman Mark Meadows and 
  Ranking Minority Member Gerald E. Connolly, Entered by Rep. 
  Gerald E. Connolly.............................................    86
Response Letter From The Hon. Manuel Ehrlich to Chairman Mark 
  Meadows, Entered by Chairman Mark Meadows......................    89
Response Letter From the Hon. David S. Ferriero to Chairman Mark 
  Meadows, Entered by Chairman Mark Meadows......................    91
August 14, 2015, ``DHS Employee Engagement Program'', Entered by 
  Chairman Mark Meadows..........................................    94
May 21, 2015, ``Report of the DHS Employee Task Force'', Homeland 
  Security Advisory Council, Entered by Chairman Mark Meadows....   103

 
           THE WORST PLACES TO WORK IN THE FEDERAL GOVERNMENT

                              ----------                              


                        Thursday, April 16, 2015

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:06 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Gowdy, Massie, Buck, 
Carter, Grothman, Connolly, Maloney, Norton, Clay, and 
Plaskett.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order.
    And, without objection, the chair is authorized to declare 
a recess at any time.
    For the past few years, Federal employees have had surveys 
that have revealed government-wide decline in employee 
engagement and satisfaction. We get these results from the 
Federal Employee Viewpoint Survey. It is an OPM-administered 
survey that reaches out to more than 800,000 Federal employees 
in 2014. And, of that number, nearly 400,000, which is an 
incredible number, replied. And this data was sorted by OPM to 
provide numbers and kind of useful metrics that we can look at 
in terms of employee satisfaction.
    Ninety percent of the Federal employees surveyed are 
willing to put in the extra effort necessary to get the job 
done, an incredible number, and they consistently look for 
better ways to do the job. Yet, employee perception of agency 
leadership continues to decline, with only 42 percent of 
workers expressing confidence in their superiors. And that is 
from cabinet secretaries all the way to midlevel managers. And 
only 50 percent of employees had positive things to say about 
the integrity of their leadership, including communication and 
the ability to motivate their workforce.
    This is a considerable decrease and should be a concern for 
agency leaders and raises questions about the priorities in 
managing our Nation's more than 2 million public servants.
    Seven in ten workers said that their chance at a promotion 
is not based on merit, but on favoritism, something that is 
extremely troubling, I know, to me and the ranking member. Are 
agency leaders really doing enough is the question. Survey 
results from agencies that appear before us today suggest that 
not enough has been done.
    Specifically, DHS and the Chemical Safety Board are 
consistently below government-wide averages for employee 
engagement and satisfaction. The Department of Homeland 
Security--and, Ms. Emerson, we will be hearing from you--the 
Department of Homeland Security rests as the worst place to 
work among cabinet agencies and saw its score drop by nearly 3 
points from 2013. DHS had ranked 19 of 19 in terms of cabinet 
agencies on factors such as effective leadership, fairness, 
empowerment, and skills to match the mission.
    Specifically, one that is near and dear to me, as I have 
mentioned to you previously, is that Secret Service employees 
ranked number 276 out of 315 among places to work. I continue 
to get emails from agents who are willing to give their life 
for the President and, yet, they are afraid to engage with 
supervisors in terms of making decisions.
    So I say that we are having this hearing because this will 
not be the first of any hearing. This will be an ongoing--
really, the ranking member and I believe that focusing on the 
great workforce that we have is critical. We have agreed to go 
out and meet with the rank and file on a regular basis to hear 
from them. And so, if the message is out there today, there is 
at least one Democrat and one Republican willing to look at 
what matters most to the hundreds of thousands of Federal 
workforce employees that serve our public every day.
    From an National Archives standpoint, I want to just give a 
personal thank you for allowing me to come in and meet with 
some of the folks who are doing a job that really is part of 
history. As I went around to see the dedicated workers that are 
there, I got a real sense of their desire to serve sometimes in 
a very hot warehouse, sometimes in a place that is not 
necessarily the most glamorous in terms of working for, but, 
indeed, they are part of history.
    And so I share that to say I have great hope that today Mr. 
Connolly and I will be able to embark and other members of this 
subcommittee will be able to embark on an effort that is not a 
hearing for TV or anything else, that it is a real hearing 
about a message that these surveys and their input matters. And 
we are going to put real pressure on those who don't perform.
    I would be remiss in not saying, even though my opening 
statement was negative about DHS, that the Secretary of DHS 
just came by and had a meeting with Mr. Connolly and I and has 
laid out a number of steps on where he is wanting to address 
this particular concern for employee morale.
    And so I thank all of the witnesses for being here today. 
And I look forward to a working relationship where we can work 
together to make sure that we have improved numbers, but, more 
importantly, improved satisfaction among our Federal workforce.
    Mr. Meadows. And, with that, I would recognize the ranking 
member, Mr. Connolly, from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And thank you for 
having this hearing.
    And I know your commitment is quite sincere. You want to 
collaborate to make things better, not just cavil. And I think 
that is a really important point to be emphasized. And you and 
I most certainly will collaborate in trying to accomplish that. 
Because it is easy to complain or highlight problems. It is a 
lot more difficult to try to address them.
    As you said, Mr. Chairman, the Secretary of Homeland 
Security cared enough about this topic to come see you and me 
prior to this hearing. And I would ask unanimous consent that 
the letter addressed to you and me written by the Secretary be 
entered into the record.
    Mr. Meadows. Without objection, so ordered.
    Mr. Connolly. I thank my friend.
    According to the annual Federal Employee Viewpoint Survey 
administered by the Office of Personnel Management and the 
Partnership for Public Service, employee morale and job 
satisfaction in the Federal Government have declined rather 
dramatically over the last several years.
    The Partnership's Best Places to Work for 2014 analysis 
concluded that the Federal employee morale fell to its lowest 
point ever since the organization first started measuring it in 
2003. The results of 2014 continue the troubling pattern of 
decreasing employee satisfaction scores for the fourth 
consecutive year, dropping from a high of 65 out of 100 in 2010 
to 57 today.
    Federal Government is clearly going in the wrong direction 
with respect to supporting its people, particularly when 
contrasted with private sector worker satisfaction. Private 
sector workers increased their job satisfaction in the same 
time period from 70.6 in 2010 to 72 in 2014. In fact, now the 
gap between the two, Federal and private sector, has nearly 
tripled in that timeframe since 2010.
    Looking at the data and the dates, certain events have 
likely contributed to the decline. After the Great Recession, 
private sector job satisfaction started to bounce back in 2010. 
Conversely, since 2010, Federal employees have endured a 3-year 
pay freeze, $140 billion in pay and benefit cuts, 
sequestration, budget cuts, hiring freezes, reductions in 
performance awards and training budgets, and a 16-day 
government shutdown, with also the threat of perhaps shutting 
down the Department of Homeland Security, averted at the 
eleventh hour last month.
    It is not surprising that these events, along with 
political attacks disparaging the Federal workforce by some 
elected officials, including in this body, have actually had a 
toll on Federal morale. Imagine.
    The problem isn't just within Federal agency management. 
Part of the problem is the political management problem right 
here in the halls of Congress. We have to take responsibility 
for the impacts we are having on your workforce.
    What is even more worrisome is that majorities in both the 
House and Senate recently passed budgets for fiscal year 2016 
that would further slash agency spending below sequestration 
levels by $760 billion over 10 years. These measures call for 
additional Federal workforce-related cuts, more than $280 
billion over 10 years in the House proposal alone.
    I am worried about the negative impact of low employee 
engagement and satisfaction and employment productivity, agency 
mission, retention of valuable employees, and recruitment of 
the next generation. We especially need to be mindful of the 
long-term negative effects on the service the Federal 
Government provides to the American people because, ultimately, 
that is what we are going to be focused on.
    Last March I joined with Ranking Members Cummings and Lynch 
in requesting that GAO conduct a study of Federal engagement 
trends as well as potential root causes. We asked GAO to 
provide recommendations for improving workforce morale. I know 
that GAO is completing that study and is here to testify about 
some preliminary findings. And I welcome Mr. Goldenkoff to the 
table.
    I understand the National Archives and Records 
Administration, the Department of Homeland Security, and 
Chemical Safety and Hazard Investigation Board have ranked 
poorly in these surveys. This hearing offers us an opportunity 
to discuss their particular challenges and the steps they are 
taking to address them.
    It is also important to note there are many Federal 
agencies that are performing better than the ones before us 
today, including entities that boast higher satisfaction and 
commitment scores than the average private sector score of 72.
    For example, NASA ranked number one of the large agencies 
with a score of 74.6. The top six mid-sized agencies--FDIC, 
GAO, Smithsonian Institution, Federal Trade Commission, Federal 
Energy Regulatory Commission, and the Nuclear Regulatory 
Commission--all scored higher than the private sector.
    I am encouraged that, despite the decline in the indices of 
employee engagement and work satisfaction, the 2014 Federal 
Employee Viewpoint Survey data demonstrates that Federal 
employees, nonetheless, have persevered through a lot of 
adversity and remain dedicated and overwhelmingly positive 
about their service to the country, which the chairman alluded 
to.
    Ninety percent of our Federal employees believe that the 
work they do is important. Ninety-six percent of our Federal 
employees are willing to put in the extra effort to get the job 
done. Ninety percent are constantly looking for ways to do a 
better job. That gives us a lot to work with and renews my 
faith in who are these public servants. They are dedicated 
fellow Americans who want to make this a better country.
    And I really appreciate that sentiment being expressed by 
the chairman, who recognizes that in his own interactions with 
our public servants.
    So thank you, Mr. Chairman, for holding this hearing. I 
certainly look forward to hearing the testimony and having a 
chance to have a dialogue with our witnesses.
    Mr. Meadows. Thank you, Mr. Connolly, for those insightful 
remarks.
    I will hold open the record for 5 legislative days for any 
members who would like to submit a written statement.
    I will now recognize our panel of witnesses. I am pleased 
to welcome the Honorable David Ferriero, the Archivist at the 
National Archives and Records Administration; the Honorable 
Manuel Ehrlich, a Board Member of the U.S. Chemical Safety 
Board; Ms. Catherine Emerson, Chief Human Capital Officer for 
the U.S. Department of Homeland Security; and Mr. Robert 
Goldenkoff, Director of Strategic Issues for the U.S. 
Government Accountability Office. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So I would ask you if you would please 
rise and raise your right hands.
    Do you solemnly swear or affirm that your testimony that 
you are about to give will be the truth, the whole truth, and 
nothing but the truth?
    Let the record reflect that all witnesses have answered in 
the affirmative. Thank you. And please be seated.
    In order to allow some time for discussion and dialogue, I 
would ask that you would limit your oral testimony to 5 
minutes. But your entire written statement will be made part of 
the record.
    And so, Mr. Ferriero, we will come to you. You are now 
recognized for 5 minutes.

                       WITNESS STATEMENTS

              STATEMENT OF HON. DAVID S. FERRIERO

    Mr. Ferriero. Good morning.
    Chairman Meadows, Ranking Member Connolly, and 
distinguished members of the committee, thank you for inviting 
me here today to discuss the National Archives and Records 
Administration and our ranking in the Partnership for Public 
Service's 2014 Best Places to Work in Federal Government.
    My written testimony contains details of the many actions 
underway to address employee engagement and morale issues at 
the National Archives. What I would like to convey now to you 
and, more importantly, to any NARA staff member who may be 
watching this hearing is that I take the results of the annual 
Employee Viewpoint Survey very seriously and personally.
    Much of the work that goes on behind the scenes at the 
Archives is hard, physical work in windowless facilities that 
lack amenities found in most Federal office settings. Believe 
me, I know. I began my career pulling and reshelving books and 
journals for long hours in the bowels of the libraries at MIT.
    I have traveled to NARA facilities over the past few years 
and met with employees. What is most distressing to me is that 
many staff feel that they have felt undervalued and overworked 
for years. They're also rightfully frustrated by the simple 
facts that, over the past three decades, our holdings have more 
than tripled, customer expectations have changed dramatically, 
and electronic records requiring new resources, while at the 
same time our workforce numbers have declined.
    We are far behind finding efficiencies to do more with 
less. The very nature of our work has changed to the point 
where employees of 30 years ago would not even recognize it. 
NARA staff work hard every day to continue to provide excellent 
service to our customers and preserve and manage our holdings, 
but the pressure does affect morale.
    I inherited NARA's low EVS scores when I took this job 5 
years ago. As you will see in my written testimony, much has 
been done to address the results of the survey. But because you 
invited me here today, you also know that positive change has 
been slow in coming.
    We have adopted some of the newest and most innovative 
practices for engaging the Federal workforce, including the 
strategies in the recently released OMB memo on strengthening 
employee engagement and organizational performance and the six 
best practice strategies recommended by the Partnership for 
Public Service. These practices include holding executives 
accountable for executing engagement, improvement plans 
developed with staff, partnering with our labor union, and 
being transparent about our EVS results.
    More importantly, we listened to staff and are following 
through with actions they identified as important to improving 
their satisfaction, including developing a cadre of motivated, 
well-trained supervisors, administering a fair and effective 
performance management system, providing meaningful career 
paths, creating a culture of respect and appreciation, and 
making workplace safety a priority, providing easy access to 
the tools employees need to do their jobs.
    We have started to see the results of these efforts in our 
annual scores. In 2014, the majority of NARA employees 
responded positively to questions focused on the relationship 
with their supervisors, including trust, respect, and support. 
We have seen improvement in questions related to performance 
management and diversity and inclusion.
    Our employees have consistently demonstrated their 
commitment to NARA's mission and work, and this is reflected in 
the EVS survey. They've also responded positively to questions 
that measure their perceptions of teamwork and quality of work. 
These are strengths that NARA must nurture and grow in order to 
build greater trust in agency leadership and pride in being 
part of our agency as a whole.
    They deserve an agency that they can honestly call one of 
the best places to work in the Federal Government. I firmly 
believe that we are on the right path and that the future is 
bright for the National Archives. Millions of people visit our 
facilities and walk away full of pride, having been inspired by 
the history of our Nation.
    Three thousand NARA employees make that experience 
possible. From those who are driving forklifts to those who are 
helping respond to more than 1 million annual requests, to help 
veterans claim benefits, to those who are caring for the 
Declaration of Independence, they all work for the common good 
of the National Archives and the citizens of our country, and 
we should all be proud and inspired by their service.
    [Prepared statement of Mr. Ferriero follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Mr. Meadows. Thank you so much for your testimony.
    And I have been informed that it is streaming back to some 
of your employees. And so I know they take to heart your 
comments.
    But I would be remiss if I don't say personally a real 
thank you to many of them for the hospitality that they showed 
me when I was visiting there and for the way that they treated 
me with not only such genuine hospitality, but frankness and 
support.
    And I look forward to working with you. Thank you.
    Mr. Ehrlich, you are recognized for 5 minutes.

                STATEMENT OF HON. MANUEL EHRLICH

    Mr. Ehrlich. Thank you, sir.
    Mr. Chairman, Ranking Member, and members of the 
subcommittee, thank you. Thank you for the opportunity to 
appear here today representing the U.S. Chemical Safety Board 
and the USB. We welcome your visitation to the agency with your 
colleagues so you have a better understanding of what we do and 
how we do it.
    Since the CSB is recently without a chairperson, the agency 
for now is being run with three presidentially appointed board 
members, of whom I am one. Although we are working together, my 
views today are my own.
    I came to the CSB with training and experience in human 
resource issues. I spent over 50 years in the chemical industry 
in a variety of positions, much of my career spent with BASF 
Corporation, the largest chemical company in the world. At 
BASF, I worked as a chemical plant manager and in many other 
roles.
    I completed graduate studies in chemical engineering, and I 
have master's degrees from Columbia in counseling psychology 
for business and industry. I understand the issues related to 
some of these human behavior topics.
    In the 5 months that I have served on the U.S. Chemical 
Safety Board, what has impressed me most is the dedication and 
professionalism of the staff. I have been to industrial 
chemical accident sites with investigation teams and have seen 
firsthand how diligently they perform potentially hazardous 
work, put in long hours, and spend months away from home. They 
have a steadfast commitment to making industrial chemical 
facilities safer places for workers, companies, and 
communities. I am privileged to work alongside them and the 
rest of the staff.
    The Federal Viewpoint Survey does show CSB staff morale is 
low in some areas. The board is taking steps to improve morale, 
and I also believe there are critical steps that Congress can 
take to help. But the survey does not tell the whole story.
    Since I became a board member, I have personally met with 
virtually every staff member face to face. I have listened to 
their concerns, sought their input on what we, as 
presidentially appointed board members, can do to show our 
appreciation for them. I have found commitment to the CSB 
mission and workplace to be very strong and morale in many 
areas is high.
    The staff derives a great deal of job satisfaction in 
finalizing reports, presenting them to communities in public 
meetings and news conferences, and seeing their safety 
recommendations implemented. They tell me they get considerable 
job satisfaction in saving lives. That is the CSB mission, and 
we take it personally.
    To address morale issues, the CSB has an active workplace 
improvement committee, members of which were suggested by the 
staff itself, which has been meeting regularly to suggest 
specific improvements. They have spoken to all staff members.
    Since last summer, the committee has created action items 
on improving employee on-boarding, creating a database of CSB 
best practices, and clarifying employment policies, as they are 
now working to implement these action items.
    I emphasize again that the core work is being accomplished. 
The CSB has been highly productive, particularly the past year, 
since the OPM survey was last conducted. The number of cases is 
now down to 7 from 22, the case backlog 5 years ago. We closed 
2 more cases in a recently public meeting, and a total of 8 
reports over a 9-month period. Despite the agency's challenges, 
we are in a period of very high productivity.
    I will draw to a close by suggesting that morale could be 
improved even more if two things could happen. First, we need a 
chairperson confirmed. We need the ability to hire more 
investigators. Right now we have only 20 to cover the entire 
country, based on our current budget.
    As a result, we frequently must pull investigators off of 
one investigation and put them in new ones on an ad hoc basis. 
This has caused more than a few morale problems. And 
investigation delays over the years has led to criticism. We do 
not let the quality of investigations falter. So additional 
resources are needed to perform the CSB's mission.
    In summary, I would like to reiterate the following:Good 
work is being done at the CSB. We are productive. All of us 
whom the President appointed to the board are committed to 
working collegially to further improve morale. We look forward 
to working with you and other congressional committees to 
continue to serve the public. Thank you.
    [Prepared statement of Mr. Ehrlich follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Mr. Ehrlich.
    Now, are you streaming this back to your employees today, 
this hearing?
    Mr. Ehrlich. I'm sorry. But I don't know, sir.
    Mr. Meadows. Okay. Ms. Emerson.

               STATEMENT OF CATHERINE V. EMERSON

    Ms. Emerson. Chairman Meadows, Ranking Member Connolly, 
members of the subcommittee, thank for the opportunity to 
appear before you today to address the Department of Homeland 
Security's efforts in enhancing employee engagement.
    I am Catherine Emerson, the Department's first career Chief 
Human Capital Officer. I'm responsible for the Department's 
human capital policy, which covers recruiting, diversity 
inclusion, learning and development, and workforce planning in 
support of DHS's mission. My office supports employee 
engagement efforts led by Secretary Johnson and Deputy 
Secretary Mayorkas.
    DHS employees stand on the front lines day in and day out 
to protect our citizens from threats at home and abroad. Our 
employees do difficult work under challenging circumstances, 
from protecting the border at the Rio Grande Valley to guiding 
maritime traffic on the Mississippi River, to managing 
shipments at the Port of Seattle, and welcoming visitors at the 
JFK International Airport.
    Therefore, as the Deputy Secretary has stated, we must 
create the Department our employees deserve. We recognize that 
we must start with our leadership to improve employee morale. 
Employee engagement is not a human resources program. We see 
employee engagement as a leadership responsibility for the 
entire Department with human capital support.
    Demonstrating this leadership responsibility, the Secretary 
and the Deputy Secretary launched the employee-focused Building 
the Department You Deserve initiative. Led by the Deputy 
Secretary and coordinated through an operationally focused 
employee engagement steering committee, three items this 
initiative have focused on are the Secretary honoring over 300 
employees at a recent award ceremony.
    This was the first one that was held in over 6 years. The 
Secretary has directed component leadership to host appropriate 
ceremonies and events to honor the contributions of their 
employees and DHS partners,and we are doing this to acknowledge 
and recognize the fine work of our employees.
    Our employees have asked for greater transparency in the 
Department's hiring process. We have posted personnel 
information on our internal Web site, provided helpful tips for 
managers that highlight how to lead a transparent hiring 
process,and we have made a concerted effort to more prominently 
post job opportunities.
    Additionally, DHS is continuing to build a common 
leadership experience that begins at our on-boarding and 
continues throughout our leaders' careers. We will continue to 
emphasize our key executive programs, including the DHS Senior 
Executive Service Candidate Development Program and the 
Department's own Executive Capstone Program for new members of 
the senior executive service.
    Moreover, the Secretary and the Deputy Secretary are 
committed to personally hearing from our employees. Both of our 
senior leaders hold regular meetings with rank-and-file 
employees as well as with supervisors, managers, and executives 
when visiting field offices or in video conferences. In these 
meetings, they're listening to the concerns and suggestions of 
our employees across the country.
    Furthermore, the Deputy Secretary regularly engages with 
our union partners, hearing their feedback and concerns. 
Building the Department our employees deserve is also about 
finding better ways to do business and building opportunities 
for them to succeed.
    We thank Congress and this committee, particularly Chairman 
Chaffetz, for last year's passage of the Border Patrol Agent 
Pay Reform Act. This legislation is an excellent example of 
finding a better way to do business, as it replaces the 
administratively uncontrollable overtime model with a new and 
sound process for ensuring that our Border Patrol personnel are 
properly paid for their work.
    We are leaning forward to implement actions that we believe 
will make a lasting and valuable difference to our employees. 
In the words of Secretary Johnson, we must inject a new energy 
into DHS, and we are working diligently to do just that. 
Through our efforts, we hope to enhance the work experience and 
honor the contributions of our hard-working and dedicated 
workforce.
    Thank you again for supporting our employees who are 
protecting all of us each and every day. I look forward to your 
questions.
    [Prepared statement of Ms. Emerson follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Ms. Emerson, thank you for your testimony.
    And I will say thank you for the energy that I witnessed 
just in the meeting prior to this. And I look forward to 
working with you in the months and years to come.
    Mr. Goldenkoff, you are recognized for 5 minutes.

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Chairman Meadows, Ranking Member Connolly, 
and members of the subcommittee, thank you for the opportunity 
to be here today to discuss strengthening Federal employee 
engagement.
    A growing body of research on both private and public 
sector organizations has concluded that employee engagement, 
which is defined as the heightened sense of purpose and 
commitment employees feel towards their employer and its 
mission, can generate such benefits as increased productivity, 
higher customer service, and less absenteeism. Simply put, 
engagement is not about happy employees. It's about effective, 
high-quality, and responsive government.
    However, as was noted here today, government-wide levels of 
employee engagement have declined 4 percentage points, from 67 
percent in 2011 to 63 percent in 2014, as measured by OPM's 
Federal Employee Viewpoint Survey and a score OPM derives from 
the survey called the Employee Engagement Index, or EEI.
    Recognizing the connection between engagement levels and 
organizational performance, the administration has called on 
agencies to strengthen employee engagement. For example, agency 
leaders are to be held accountable for making employee 
engagement an integral part of their performance management 
systems.
    In addition, as part of their annual performance plans and 
appraisals, each member of the senior executive service will be 
responsible for improving employee engagement within their 
organization and for creating inclusive work environments.
    As requested, my remarks today will focus first on 
government-wide trends in employee engagement from 2006 through 
2014;second, various practices that can strengthen engagement; 
and, third, certain limitations of the EEI that will be 
important for agency managers and leaders to consider as they 
use this metric to assess and improve engagement with their own 
organizations.
    Our work indicates that improving employee engagement, 
especially during challenging fiscal times, is a difficult, but 
doable, task. The key is to understand and act on the drivers 
of engagement, both government-wide and agency-specific, and 
weave those practices into the everyday fabric of agency 
culture.
    With respect to government-wide engagement trends, it's 
important to note that the majority of Federal agencies 
actually defied the recent government-wide downward trend in 
engagement levels and sustained or increased their scores. As 
one example, from 2013 to 2014, 3 of 47 agencies saw an 
increase in their engagement scores, 31 held steady, and 13 
declined.
    The decrease in government-wide engagement is the result of 
several large agencies, such as DHS and DOD, bringing down the 
overall average. Employee perceptions of leadership are also 
pulling down the government-wide average.
    Of the three components that comprise the engagement 
index--employees' perceptions of agency leaders, their 
perceptions of supervisors, and employees' intrinsic work 
experiences--agency leadership has consistently received the 
lowest score and, at times, was about 20 percentage points 
lower than the other two components.
    Our analysis of the Employee Viewpoint Survey identified 
six key practices that were consistent drivers of higher 
engagement levels, namely, having constructive performance 
conversations, providing opportunities for career development 
and training, supporting a good work-life balance, creating an 
inclusive work environment, employee involvement in work-
related decisions, and good communication from management.
    These practices were associated with higher engagement 
scores government-wide by agency and by selected employee 
characteristics and, therefore, could be starting points for 
agency efforts to improve engagement.
    Although OPM provides a range of tools and guidance to help 
agencies analyze their engagement scores, the EEI data itself 
has limitations that agencies need to be aware of. For example, 
OPM does not report whether changes to an agency's engagement 
score is statistically significant, which could lead agencies 
to misinterpret their results.
    Moreover, the way in which OPM calculates the engagement 
index does not enable agencies to analyze the drivers of 
engagement for their organization.
    Given these and other limitations, agencies will need to 
supplement their engagement scores with other information such 
as workforce analytics and facilitated discussions with 
employees.
    In conclusion, to improve performance, agencies must make 
strengthening and sustaining employee engagement an integral 
part of their organizational culture and not simply an isolated 
set of practices.
    Put another way, if a talented workforce is the engine of 
productivity and mission accomplishment, then a workplace that 
fosters high levels of employee engagement is the fuel that 
powers that engine.
    This concludes my prepared remarks. And I would be happy to 
answer any questions that you may have.
    [Prepared statement of Mr. Goldenkoff follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you all. Thank you for your testimony.
    And, Mr. Goldenkoff, I want to come to you first because, 
obviously, your agency is--they are doing things right because 
you get better scores. Some of the things that you just 
highlighted there certainly are things that need to be 
implemented.
    In the analysis that you did, did you find a resistance, 
perhaps, on the part of senior-level executives or mid-level 
managers or the like or even as high as cabinet to implement 
some of those additional recommendations or observations that 
you have made?
    Mr. Goldenkoff. No. We definitely did not find a 
resistance. It seems like, at the top level, agencies seem to 
be getting it. As you've heard here today,secretaries and other 
heads of agencies at the senior level, they seem to be getting 
it.
    To the extent that there are any breakdowns, it seems to be 
more in the implementation, either insufficient data analysis, 
for example, doing root cause analyses, looking for the drivers 
of engagement both at the enterprise level and by component 
level. In some cases, there are issues with communication.
    So it's not the case--you know, if you look at it sort of 
as a maturity model, agencies are definitely recognizing the 
need to take action. But it's more now in terms of--and where 
the focus should be is on better implementation of key steps.
    Mr. Meadows. All right. So let me ask one other question 
before I go on to some of the other witnesses.
    How much of this is a legislative fix that is needed with 
regards to either the civil service, you know, performance 
metrics or whatever? How much of that can we fix and how much 
of that is where we have to put emphasis so the agencies can 
fix, in your opinion?
    Mr. Goldenkoff. Well, what's so important is I think there 
needs to a partnership. And we've heard a lot of that today. 
It's really very encouraging. Clearly, Congress gets the 
message as well.And just being supportive of the Federal 
workforce, but also holding them accountable for results, is so 
important.
    In terms of legislative fixes, most of what needs to be 
done really starts with agencies and agency leaderships 
creating that culture of engagement and then cascading that 
down and creating almost like micro-levels of engagement.
    So it can be done. It starts at the top level, at the C-
Suite, and then filters all the way down to the cubical and 
then just focusing on these key ingredients and these key 
drivers of engagement.
    So in terms of a legislative fix, you know, I don't think 
anything stands out. I mean, there are certainly things like 
the shutdown, things that may not have been helpful. But at the 
same time----
    Mr. Meadows. My ranking member was just about to go crazy 
that that softball was not hit out of the park.
    But go ahead.
    Mr. Goldenkoff. GAO is not completely inattentive.
    And one thing is important to note. And this is what we 
bring out in our testimony, in the written statement, but, 
also, in the full report that will be coming out in a couple of 
months.
    During those difficult times, what was interesting was the 
number of agencies that actually improved their scores and went 
up. So, you know, it----
    Mr. Meadows. So let me ask you: On the ones who improved 
their scores, what kind of affirmation did they get to continue 
that?
    Because, you know, we all are in either a reward or risk-
averse society where punishment we hate, rewards we like.
    But did any of that happen to any those that improved 
scores other than that they got a good score on a report that 
some would say most don't look at?
    Mr. Goldenkoff. Well, there is that. But a lot of people do 
read that. And, of course, it's in the Washington Post, and we 
have hearings on it. So these things do get a lot of publicity.
    I think that, you know, really what drives so much of this 
is, one, better agency performance. You know, we are all public 
servants and we really focus on agency mission.
    So to the extent that better engagement and higher morale 
leads to better accomplishments at the agency level and then at 
the subcomponent, that's a big driver.
    And then, also, holding individual leaders, from the 
executives all the way down to those front-line supervisors--
everybody is responsible for improving engagement.
    Mr. Meadows. All right. Thank you so much.
    Mr. Ferriero, I want to come to you. Yesterday you shared 
with me how you worked in a very hot area picking books off and 
that you understand some of the issues that some of your 
workforce gets to engage in on a regular basis.
    So I would ask you: With the scores being as low as they 
are and the action plan that you have outlined, what are the 
major impediments to providing--to getting the scores up?But, 
more importantly, the scores would represent a change in 
attitude among many of the people that you have working.What is 
the major impediment that you might have?
    Mr. Ferriero. I think it's clear that a tripling in the 
size of the record collection and a decrease in the number of 
total staff over a period of years has had tremendous impact on 
the staff's ability to keep up with the work that needs to be 
done.
    What I was sharing with you yesterday was my own experience 
about how routine the jobs get to be and no opportunities for 
advancement or enhancement of job skills.
    So we have an initiative underway that's addressing career 
paths so that folks have an opportunity to join the National 
Archives and see a career path that gives them a certain set of 
skills and opportunities for advancement.
    As I said, it's very personal to me because this is the 
situation that I had when I first started my job in this 
profession.
    Mr. Meadows. So can we get from each one of you that are on 
this list kind of a benchmark of where you would like to be 6 
months from now and a year from now? I mean, are each one of 
you willing to at least give me a goal that you are looking to 
get in terms of increasing these numbers? I will start with 
you.
    Mr. Ferriero. Well, we've laid out--I'm encouraged because 
the staff at large has taken this seriously and they've taken 
ownership of the issue.
    So we have employee engagement teams working across the 
National Archives to identify in the local area what are the 
most important issues that are--and they're basing this on the 
scores--what can we do locally to address these issues. A 
national-level team works with those individual teams to look 
at patterns across the agency.
    Mr. Meadows. I guess what I am asking for is, in order for 
me to properly evaluate it and for the ranking member to 
properly evaluate it, we at least need a goal that the three of 
you are looking at. And that may be a modest goal in saying, 
``We are looking at increasing the score and making it here or 
here.''
    And is it that something that you are willing to get with 
your senior staff and provide to the committee in terms of some 
clear objectives and where you want to be?
    Then we have got a matrix to at least measure against so we 
are not here next year saying, ``Well, we didn't make much 
progress'' and all of you are saying, ``Oh, we did make 
progress.'' I need something quantifiable, I guess is what I'm 
saying.
    Mr. Ferriero. I would like to be able to come back to you 
and brag about the fact that we have improved scores in at 
least three different areas that the staff has identified as 
problem areas.
    Mr. Meadows. Let me put it a different way for all three of 
you. Here is what I am asking you to provide to this committee, 
is a score, a quantitative number, in terms of where we are 
today and where you would like to be a year from now.And then 
you have already outlined some of the action plans that you are 
doing, obviously, to get there.
    But I want to make sure that we can measure against that 
and say, ``Okay. Well, gosh, these things worked. These things 
obviously didn't move the needle at all. So let's scrap them 
and go on to something else.'' Would all three of you be 
willing to work on that?
    Mr. Ferriero. I can provide that for you.
    Mr. Ehrlich. Yes, sir.
    Mr. Meadows. I've gone way over my time.
    So I am going to recognize the ranking member, Mr. 
Connolly.
    Mr. Connolly. No problem. Thank you, Mr. Chairman.
    Mr. Ferriero, how many employees have you got?
    Mr. Ferriero. Just under 3,000.
    Mr. Connolly. Three thousand.
    And would it be fair to say you are kind of focused on the 
organizing principle of a core mission that is fairly clear, 
employees understand what their mission is?
    Mr. Ferriero. And they love it.
    Mr. Connolly. And they love it.
    Ms. Emerson, how many employees have you got?
    Ms. Emerson. DHS is the third largest Federal agency. So we 
have over 225,000 employees at DHS. We're very large.
    Mr. Connolly. And how many agencies--subagencies were 
amalgamated to create the Department of Homeland Security.
    Ms. Emerson. Approximately 22 agencies.
    Mr. Connolly. Twenty-two agencies.
    And so would it be fair to say, unlike, say, Mr. Ferriero, 
although you have got an overarching mission, the security of 
the homeland, once you get below that--that amalgam of 22 
agencies, you have got lots of different missions?
    Ms. Emerson. We have lots of different missions underneath 
that. Of course, we have our main mission, and this is----
    Mr. Connolly. No. No. We got that.
    Ms. Emerson. --protecting the homeland.
    Mr. Connolly. We got that.
    But when we look at Secret Service, it has got a specific 
focus. Coast Guard has a very different focus. You know, Border 
Patrol has a different--you know.
    And would it be fair to say that it is a little misleading 
to even give a grade to the Department of Homeland Security as 
a whole because, actually, when you look at your constituent 
parts, there is enormous variety in the scores of morale and 
employee satisfaction?Is that correct?
    Ms. Emerson. That's correct.
    Mr. Connolly. So, for example, Coast Guard has a very high 
score.Is that correct?
    Ms. Emerson. That's correct.
    Mr. Connolly. And perhaps Secret Service at the moment has 
a fairly low score relative to that.
    Ms. Emerson. They've been dropping in their score.
    Mr. Connolly. Yeah. They have been dropping.
    So I think that is really important, that in the case of 
the Archives, we have got a focused agency, clear core mission, 
and the employees love that mission and are imbued with it, and 
it is a fairly focused kind of set of activities we have got to 
concentrate on because the numbers are manageable and small and 
all that relative to you.
    The Department of Homeland Security is, you know, a huge 
enterprise, and it is really misleading in some ways to give 
you one score because, implicitly, it suggests a homogeneity 
that, in fact, is not correct, is not accurate.
    Mr. Goldenkoff, I assume, as GAO is looking at this 
process, it is taking cognizance of that difference.
    Mr. Goldenkoff. Yes. I mean, with DHS in particular, I mean 
they've merged all these agencies, merging these very, very 
different cultures, different missions, and it just takes time. 
And DHS is still working through that process.
    Mr. Connolly. Yes.
    And I don't want to overstate it. And the chairman was kind 
enough to note that I was a little agitated as you were 
answering his question because I do think that Congress has to 
take responsibility for some of this. We're not bystanders or 
observers.
    And sometimes, listening to ourselves, you know, we might 
as well put up a sign, ``The flogging will continue until 
morale improves.'' We're, in part, responsible for that. I gave 
a litany of actions we have taken that have certainly not 
contributed to improved morale.
    And I would hope--and I know the chairman absolutely is 
committed to trying to do what he can to turn that around. We 
need to be speaking in respectful tones about our workforce. We 
need to be motivating them and incentivizing them. We need to 
be fair. We need to avoid the demagogic or the pandering, even 
though the temptation politically may be great. Because back 
home, you know, beating up on nameless bureaucrats, you know, 
can help you.
    Defending the Federal employee is of low political yield in 
many districts, not mine, but many. And avoiding that, you 
know, I think is really important. And I really respect the 
chairman for the fact that he is committed to that, too. And he 
is in a different kind of district than mine. And I really 
appreciate that commitment.
    Mr. Ehrlich, let's take a look at the ranking of the 
Chemical Safety Board. The Partnership ranks your board 10th 
out of 10, the lowest of the low of small agencies, with a 
score of 33.7.
    Now, that's almost half the average and well below the high 
of 76 and well below the private sector. And that represents a 
2.9-point fall from just the year before and a huge decline 
from what it was just 2 years ago, when it was 54.2.
    So you've seen a precipitous drop in morale in the Chemical 
Safety Board.Is that correct?
    Mr. Ehrlich. Yes, sir. I have seen the numbers, and I 
understand that. I've been there 5 months. I can tell you it's 
getting better and we're going to continue to make it better. I 
think we understand why some of those issues occurred, and I 
think we're doing something to turn them around. Our work 
product has not faltered during this period.
    Mr. Connolly. You said ``we think we understand why.'' 
Perhaps you can elaborate. Why?
    Mr. Ehrlich. Well, for one thing, many years ago, a guy by 
the name of Tom Peters wrote a book that was called Management 
by Walking Around. Okay? I have not seen that until recently. 
Okay?
    We have people we're dealing with. They are not robots. 
They're not automatons. They're human beings who want to know 
that they're valued. And just going out and asking them, ``How 
are you doing? How's your family?''--you are out on an incident 
where four people got killed. We have got two teams deployed 
right now, one in Texas where four people died at La Porte, 
Texas, and a massive explosion in California. Those people need 
to know that we care about them.
    And once you start to let people know that you care about 
them and you are willing to invest your time and your effort, 
which is really what we all get paid for, and be part of the 
solution instead of part of the problem, morale gets better.
    Mr. Connolly. The CSB, of which you are a board member, 
hired a consulting company called Vantage Human Resource. And 
in September of last year, it found that 80 percent of staff 
expressed ``much frustration with top leadership'' and further 
felt ``conflict among board members is having a negative 
impact.'' And 47 percent said there is a perception of a 
climate where senior leaders discourage dissenting opinions.
    Now, you are part of that leadership.Maybe not a long-
termer.You are part of that board. Your observations about the 
findings of your own consulting firm that you retained--the 
board retained to look at these issues.
    Mr. Ehrlich. Well, there's some issues with that Vantage 
study in terms of how it was handled and how it was managed, 
and as well I'm sure you know. Because of our concerns about 
that, the whole process has been turned over to the IG for 
examination and we're awaiting the outcome of that examination 
now.
    I think that the data was clearly taken. I don't have a 
whole lot of confidence in it right now. I have not reviewed it 
in absolute detail because I want to go down and talk to the 
people myself and I want to find out what's really on their 
minds.
    And I think that's much better derived by face-to-face 
intervention and interaction than by having somebody fill out a 
piece of paper and talk to somebody else.
    Mr. Connolly. If the chair will indulge just one follow-up 
question, did it surprise you, Mr. Ehrlich, or your colleagues 
that the actions or statements, or both, of the board actually 
had an impact in terms--a fairly dramatic impact in the morale 
of the workforce itself.
    Mr. Ehrlich. No. It really didn't surprise me because, in 
talking to the staff members, they want something from their 
board members. They want to know ``We're part of the team.'' 
They want to know we're there to support them, not to achieve 
our own agendas and objectives, whatever they may be.
    One of my pet peeves about being a board member is I don't 
have a job description. Well, we're working on a job 
description. I want to know what people hold me accountable 
for. I hold myself accountable for very high standards. And I 
think and I believe sincerely that, once that message gets out 
to the staff, that you're going to see a dramatic change.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Meadows. I thank the ranking member.
    Mr. Ehrlich, let me follow up. I'm confused. I mean, you've 
been there 5 months. You've been here before this committee on 
another issue just a few weeks ago.
    Mr. Ehrlich. That's correct.
    Mr. Meadows. And there was disagreement among the board 
members during that hearing. Would you----
    Mr. Ehrlich. That's correct.
    Mr. Meadows. So, what the ranking member just brought up in 
his questioning doesn't seem like you've fixed that, or are you 
saying that, shazam, it's been fixed.
    Mr. Ehrlich. Well, no, I didn't say that at all, Mr. 
Chairman. Those things takes time to fix----
    Mr. Meadows. Well, I guess here's my concern. You've one of 
the smallest agencies.
    Mr. Ehrlich. That's correct.
    Mr. Meadows. So knowing what they're thinking is certainly 
a whole lot easier than what Ms. Emerson has to deal with.
    Mr. Ehrlich. Understand that.
    Mr. Meadows. How many employees do you have?
    Mr. Ehrlich. 40.
    Mr. Meadows. Forty. At the time of this survey you had 34 
employees, and 32 of them responded, which is an incredible 
response rate.
    Mr. Ehrlich. Yep.
    Mr. Meadows. I mean, I've never seen that ever. And yet 
that incredible response rate gave you an F, a failing grade. 
And you're sitting here saying that there was a problem with 
the study that the ranking member highlighted? How could that 
be? I mean, what basis do you say that there was a problem 
with? Do you base that on the fact that Mr. Horowitz, who is 
still working with you, punished the point of contact for 
actually doing the survey? Do you base that on that?
    Mr. Ehrlich. Sir, I'm not sure I accept that terminology.
    Mr. Meadows. Well, he did punish the point of contact. Is 
that your testimony that he did not?
    Mr. Ehrlich. There were mitigating circumstances to how 
that information was handled. Dr. Horowitz is a very valuable 
asset to the agency.
    Mr. Meadows. I agree with that, and why would Dr. Horowitz 
not be here today, Mr. Ehrlich? We asked him to testify because 
he probably knows it better than you since you've only been 
there 5 months. Why would he not have come today, Mr. Ehrlich?
    Mr. Ehrlich. Well, first of all, he is not in a policy 
making decision, and general counsel advised that the person 
that represents the agency should be in a policy making 
decision or a pass. There--there--first of all----
    Mr. Meadows. So did he punish him or not?
    Mr. Ehrlich. Not in my opinion. No, sir----
    Mr. Meadows. All right. How about the other board members 
who are not here? In their opinion did he punish him? I mean, 
I've got reliable information that would suggest that he did.
    Let me tell you why you're here today is because the 
employees that work for you have given you an F consistently. 
And the other thing is what we are not going to put up with is 
a whole lot of it isn't as bad as it seems. Your particular 
agency is troubling in that we get the best analysis, you know, 
I think--I think the ranking member said it was 80 percent of 
the people didn't have confidence in the leadership. You know, 
80 percent of 40 people or 34, depending on which you want to 
look at, is a significant number, and that's very troubling to 
me, because it should be very easy to address their concerns. 
Wouldn't you agree with that, Mr. Ehrlich?
    Mr. Ehrlich. I would. And----
    Mr. Meadows. So how are you specifically, other than 
walking around, which I used to be a consultant. I could--I 
taught on that particular book, and so--but other than just 
walking around, specifically how are you addressing these 
concerns?
    Mr. Ehrlich. We have a work improvement committee in place 
where we've detailed six major topics that we're working on. 
We're going to put metrics in place relative to them. They're 
not--totally unlike what other witnesses here have talked about 
in terms of onboarding and statistics and the like, those 
things take time. And they are getting better. All right.
    Mr. Meadows. Based--okay. You just talked about metrics, 
and I am going to come to the delegate from D.C., and she's 
been gracious to not complain, but let me--under what metrics 
are you saying that they've gotten better? Because I don't--I 
don't see any. I mean, you just talked about metrics that the 
GAO--you're going to implement some of those. Under what 
metrics are they getting better?
    Mr. Ehrlich. The fact that we're continually finishing 
reports. The fact that we've got our backlog down.
    Mr. Meadows. Backlog and reports is not employee 
satisfaction, guy. I'm just telling you it's----
    Mr. Ehrlich. I'm sorry, sir, but I believe when people take 
pride in turning out reports and turning out videos as they 
do----
    Mr. Meadows. But that's not a metrics, Mr.----
    Mr. Ehrlich.--that is employee satisfaction.
    Mr. Meadows. Mr. Ehrlich, let me just tell you. I was in 
the private sector for long time. I did consulting. I did this 
kind of work on employee satisfaction. And so, you know, when 
you--I've run into managers like you who said everything's 
fine. The metrics you have can't be accurate. I've run into it 
a number of times, and let me just tell you, I'm asking you 
specifically: What metrics are you referring to that they've 
gotten better? Not--not stories, not anecdotal references. What 
metrics? Are there any? Yes or no. Are there any metrics? Yes 
or no.
    Mr. Ehrlich. Yes.
    Mr. Meadows. What are they?
    Mr. Ehrlich. I just told you what they were, sir.
    Mr. Meadows. That's not a metrics, sir.
    Mr. Ehrlich. Okay.
    Mr. Meadows. So what metrics?
    Mr. Ehrlich. I believe that when you go out and you ask 
people questions about how they feel about their workplace, how 
they feel about senior management, what is it they want, that, 
to me, can be resolved and reduced to writing and put into some 
kind of metrics.
    Mr. Meadows. All right. I am going to--well, we will have a 
second round of questions. We'll come back and address that.
    I appreciate the patience of the gentlewoman from the 
District of Columbia, and I'll recognize her for a round of 
questioning. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. You can always count 
on me to be patient.
    Mr. Chairman, actually, I very much appreciate this 
hearing. And just to put in hearing--sorry. To put in context 
my appreciation for the hearing, no matter how you look at it, 
employees of the Federal Government have felt under special 
criticism, particularly from the Congress. I mean, there's no 
gain saying this. In fact, yesterday some of us were on the 
floor as there was a--by the way, there was some good bills on 
the floor during tax day, and then there were some bills that 
were very demoralizing. I went to the floor to speak to one on 
tax filings where the Federal Government workers have the best 
tax filings in the country, and, sure, they're being paid by 
the Federal Government, but they took a lashing even though 
they are in place, absolutely in place, very--very good and 
effective ways to deal with those tiny numbers who have not 
fully paid their Federal taxes.
    So, to be lashed when you are the best, I don't know what 
you have to do. And we are seeing a generation which may be the 
golden generation of Federal employees. These employees who 
came in after JFK. These people who were the best and the 
brightest who decided to give it all to the Federal Government 
when they could have been everywhere, and if you want to see 
just good they are, there are annual prizes. And these people 
have invented things that if they'd invented them in the 
private sector, they would be millionaires by now. Discovered 
all kinds of health benefits. It's quite amazing. I go to this 
ceremony every year.
    I'm particularly interested in the Department of Homeland 
Security, Ms. Emerson, because the last agency in the country 
perhaps we need to have last--rated last is this high security 
agency within this--which in this very room we created in order 
to secure the homeland. Now, some of the reasons are quite 
obvious. I mean, we just finished having a late budget fight 
when everybody else in the Federal Government was funded except 
your security agency. Imagine how that would make you feel if 
you work for one of those agencies. And over nothing. Had to 
give up in the end. So why do such a fight. I don't even want 
to go into the sequestration, and to not having--and to the 
continuing cuts on--in pay. So I think everybody ought to 
understand that there's a wonder that there's anything 
approaching good morale.
    But when you look at the Department of Homeland Security, 
which ranks near the bottom and is so important to every 
American, how would you explain, Ms. Emerson, its low ranking?
    Ms. Emerson. Thank you. And thank you for mentioning those 
challenges that DHS employees have had, as well as the rest of 
the Federal employee workforce.
    Sequestration, budget cuts, freezes, furloughs, they all 
have an effect on employee morale. And as you mentioned, just 
recently DHS went through a potential lapse in budget again. So 
that--that does have an effect, but what I'd like to bring 
forward is that we have top leadership support through our 
Secretary and Deputy Secretary. In fact, before we even started 
this hearing, Secretary Johnson was here giving his support, 
showing how important employee morale is to him. He has----
    Ms. Norton. I know that--I appreciate and I'm very sorry. I 
had a breakfast of my own. I could not go to this meeting that 
he has come forward personally to try to explain what he's 
doing, but I was concerned that the senior leadership of all 
places is where you've seen so much turnover at the Department 
of Homeland Security. Why is that?
    Ms. Emerson. In fact, our attrition rate is better than the 
rest of the government in terms of senior leadership and in the 
rest of the Federal workforce, and that's been confirmed by OPM 
as well as our own internal folks who----
    Ms. Norton. Secretary Johnson has characterized it as a 
leadership vacuum of alarming proportions.
    Ms. Emerson. Well, he has been very busy filling senior 
leadership vacancies. In fact, he's filled 16 of them. We have 
three more left, but he's done a very good job, and he's 
worked----
    Ms. Norton. You do have some--some acting officials in a 
fair number of your top jobs. Is that because of difficulty in 
getting people to come to the agency because of the 
difficulties it's preceded, or is there some--it's incumbent--
it's gotten or is there some other reason?
    Ms. Emerson. Well, Secretary Johnson has worked very hard 
to get those positions filled. From day one he came in 
promising that he was going to fill those top leadership 
positions. We do have three acting positions now that he's 
still working. He's working hard every day to get those 
positions filled, and anything that you all can do to help him 
out on that we would appreciate because I think that when you 
have someone in an acting position at a very high leadership 
role, that does tend to----
    Ms. Norton. Well, I can't help but notice that the one 
agency within the Department of Homeland Security that stands 
out is the United States Coast Guard, and it is the one agency 
that already has its new headquarters. You are building a new 
headquarters here in the District of Columbia. The Congress has 
slowed you up, and as a result has cost the taxpayers billions 
more because the only agency to be completely built is the 
Homeland--is the United States Coast Guard, and yet it has 
strong scores among the best places. Do you think that has 
something to do with the fact that at least they have a decent 
place to work?
    Ms. Emerson. I think it very well could, and when Secretary 
Johnson was here this morning, he was talking about the 
headquarters building we call the NAC, the Nebraska Avenue 
Complex, and invite all of you to come see that.
    Ms. Norton. No. I'm talking about the Coast Guard building.
    Ms. Emerson. Oh, the Coast Guard building is the new 
building, and, yes, it's very nice. And that could have an 
effect on their morale. They're together and it is a state-of-
the-art building, and we appreciate that building.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Meadows. Thank you so much.
    The chair recognizes the gentleman from Colorado, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chair.
    Mr. Ferriero, could you tell me, what is the mission 
statement for your agency?
    Mr. Ferriero. To collect, protect and encourage the use of 
the records of the U.S. Government.
    Mr. Buck. Okay. And Mr. Ehrlich.
    Mr. Ehrlich. Our mission is to--our mission is to respond 
to major chemical incidents and supply that information to the 
American public to make the chemical industry a safer place to 
work.
    Mr. Buck. Okay. And if I looked it up, that would be the 
mission statement that you have on your Web site that your 
employees get?
    Mr. Ehrlich. It's a little more involved than that, but I 
think everybody works towards that mission, yes.
    Mr. Buck. Okay. And Ms. Emerson?
    Ms. Emerson. At Department of Homeland Security, we have a 
very important mission, and that's to protect the homeland.
    Mr. Buck. Okay. And that's the mission statement that's 
written?
    Ms. Emerson. Yes, sir.
    Mr. Buck. And is one of those areas, I take it, 
immigration?
    Ms. Emerson. Yes, sir.
    Mr. Buck. And do you think that the immigration policies of 
the administration that have encouraged hundreds of thousands 
of people to cross the border illegally, does that have an 
effect on morale at your agency?
    Ms. Emerson. I know that our Secretary and Deputy Secretary 
have met with employees and their union representative to 
discuss that issue.
    Mr. Buck. Is that a yes or a no?
    Ms. Emerson. I'm unsure. When you look at the FEVS scores, 
it's hard to tell what, you know, affects the scores, and 
oftentimes you have to do a deeper drive. So that would be hard 
for me to speculate on. But I know it is something that our 
Secretary and Deputy Secretary work with the union partners and 
employees on.
    Mr. Buck. So I just want to make sure I understand. It's 
hard for you to speculate about the fact that the immigration 
service is trying to regulate immigration in this country, and 
it has gotten to the point where it's completely unregulated 
and it's hard for you to speculate whether that is causing a 
morale issue?
    Ms. Emerson. Yeah. I'm not--I'm not sure, and I'm not an 
expert on immigration, but I do know that it is an issue that 
our Secretary and Deputy Secretary work with our employees on.
    Mr. Buck. Do you think we have an immigration problem in 
this country with the number of illegal immigrants that have 
come into this country?
    Ms. Emerson. Sir, I'm not an immigration expert, and I 
really don't feel I should give an opinion on that.
    Mr. Buck. Do you read the newspapers?
    Ms. Emerson. Yes, sir.
    Mr. Buck. And watch TV?
    Ms. Emerson. No. Not much.
    Mr. Buck. Not much.
    Ms. Emerson. There is a lot of sporting event on in my 
house. We have two teenage boys.
    Mr. Buck. That's a good thing.
    So in your daily experience, you haven't noticed whether we 
have an immigration challenge in this country?
    Ms. Emerson. I know that Department of Homeland Security is 
abiding by the law, rule, and regulations, and our Federal 
employees do that as well.
    Mr. Buck. And the fact that--I have worked with a number of 
immigration agents, and they feel like they are a race horse 
that is being kept in the stable. They never get out to the 
gate to be able to run. And that is the morale issue that I 
hear from the people that are on the ground and in my prior 
life in law enforcement.
    And I think if people have a mission and a mission 
statement and they are frustrated--they're obviously attracted 
to the agency because they wanted to work on that mission, and 
that they're frustrated in that sense, it seems to me that 
would be part of the morale problem. Any opinion on that?
    Ms. Emerson. It certainly could be. As Federal employees, 
you know, we have different policies and laws that we have to 
follow, and sometimes they come with different administrations, 
but that's our job, is to follow the laws, rules, and 
regulations that are in place at the time.
    Mr. Buck. And in some cases not follow the law. Not that 
you're breaking the law, but not enforcing the law because a 
President has issued executive orders and other direction and 
used the terms prosecutorial misconduct or has decided in other 
ways that he is going to frustrate the mission statement of an 
agency.
    No further questions.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentlewoman from New York, Ms. 
Maloney, for 5 minutes.
    Mrs. Maloney. Okay. First of all, I want to thank the 
chairman and the ranking member for holding this hearing. I 
think it's very important because we have the finest workforce 
in the world. Our Federal Government is superb, and that morale 
is low is very, very troubling to me from the reports that the 
chairman was able to review personally on it.
    I have worked on the city and state level in New York in 
the bureaucracy, and everyone I worked with were very 
dedicated, very hard working, as are our Federal employees, and 
I was amazed when I came to the Federal Government to see how 
very professional this government is in their work. There's 
always room for improvement, but it's extremely professional. 
And I believe some of the problems is that people attack 
Federal employees all the time, and it seems like every time we 
need to find some money, we take it out of Federal employees.
    And instead of leading the country with work/family 
balance, which the President has spoken about and which one of 
your reports showed from GAO that work/family balance is a very 
important part, you are dragging behind the private sector 
tremendously, and I will give you two examples, and I think 
that, Chairman Meadows, these are things we can work on 
together that don't cost money. I know that's the first thing 
with the Republican party. I can't spend a dime, but can make 
things work better, and I'll give you two bills that the 
President actually--and I was very thrilled that he mentioned 
them in his State of the Union address.
    One is paid leave for the birth of a child. I've had this 
bill in for a number of years. It passed the House once. Never 
passed the Senate. The President has endorsed it. GAO did a 
report, as did OMB, that it would not cost any money. And in 
the report that I did, and actually even wrote about it in a 
book, Rumors of Our Progress Have Been Greatly Exaggerated, we 
are the only country in the world, save two, that does not 
provide paid leave for the birth of a child. The two that do 
not provide it is Lesotho and Papua, New Guinea. And in the 
report they said the birth of a child for 2 weeks paid leave 
would be--the work would be picked up by other fellow employees 
helping out. Granted it would be more work for them, but you're 
not going to hire another person for it, but it's something 
that we can work together and make happen in a positive way.
    I will tell you, I have had Federal employees call me on is 
this bill passing. I want to time the birth of my child around 
the passage of it because in our family I cannot afford to lose 
workweeks and pay for the birth of a child. I think that's a 
concrete step that we can take to show Federal employees we 
value their work. Most--all Fortune 500s, most companies have 
this, but the Federal Government does not.
    Another--and I want Trey Gowdy to hear this, because he's 
from a conservative state and I'm from a liberal one. If we 
ever teamed up, we might be able to get some of these things 
done.
    That bill should pass. Issa said he's for it. Let's take a 
look at it. Let's see if we can pass that bill.
    Secondly is work/family balance. And as a mother who raised 
two children, I can't tell you how distressing it is if you 
have a doctor's appointment or your child's home sick and you 
have to be at the office.
    Now, what the Work/Family Balance Bill does, which was 
supported by Labor, and it was authored by myself and former 
Senator Kennedy, and based on policies that were put in place 
in England, it merely allows an employee to go to their HR 
advisor, human resources advisor, and ask about work/family 
balance items. And with the guarantee that you will not be 
fired for asking about it. And many people are very terrified 
of being fired. They need their jobs.
    I've been in the same position in my own life, and I can 
tell you when I had a child, I went to my HR and asked about 
family leave, and they said: There is no leave policy. Women 
just leave. When are you leaving? I said: I have no intention 
to leave. I'm coming back. But I was terrified that I would be 
fired because I was going to become a mother.
    And as a country that talks about family values as the most 
important thing in our country, if you look at our policies, 
they're really not there. We could pass paid leave easily, and 
we could pass--we could pass work/family balance very easily. 
Does not cost any money. You work it out with your HR advisor, 
and if it works within the timeframe and you can get the work 
done, then it can work out.
    Now, if have you a highly motivated worker, which I think 
the Federal employee--employees are, they make a choice to 
serve this great country. What an honor to serve in the 
Archives. On the archives on this greatest democracy. This 
great country. To preserve them.
    We in New York have digitized our main libraries so that 
everyone in the country can access our books. Everyone in the 
country should be accessing what we have in our great archives. 
To see the original Declaration of Independence. The original 
things that are part of our country. And I read that that 
hasn't happened. You should go back to your office, work with 
your team, make it happen, and report back to this committee 
every month on how fast you're working to digitize this system 
so that every American--believe me. Your workforce will be so 
motivated over the great goal of having this trove of 
information.
    To protect the greatest defender of democracy and human 
rights in the world, what a privilege to work at the Homeland 
Security Department. What a privilege. And if you have clear 
guidelines, you should make them go to the 9/11 Museum and hear 
the stories of the devastation. Hear the stories from the SEALS 
that risked their lives. They thought they were going to die 
when they went out to kill Osama bin Laden, but they did that 
to protect this country, to make sure if anyone did this--
killed an innocent American, that we aren't going to forget, 
we're going to get them. What a story to tell.
    I'm telling you, you take a day. Take them down to that 
museum. Have them study it. They will come back so motivated on 
the goal that they have to protect Americans and this great 
country. We have such an opportunity.
    Now my time is expired, unfortunately. I'm just warming up.
    Mr. Meadows. You may be running for President. We're ready.
    Mrs. Maloney. Now, I have some more ideas, but I'll wait 
for my turn. But I think that there's things that we can do 
that will not cost money. I know my marching orders. We will 
not cost a dime. That we can do to help this workforce and help 
them catch up to the private sector, and most people look to 
the Federal Government for best practices, and we should be 
implementing all the best practices that Mr. Goldenkoff put out 
in his report, and work/family balance. I happen to have some 
bills in it, I've worked in it, I've lived it. So I----
    Mr. Meadows. I will----
    Mrs. Maloney. But we should implement those recommendations 
that the GAO gave.
    Mr. Meadows. I will endeavor to work with the gentlewoman 
from New York, and we'll get that.
    I recognize the gentleman from South Carolina for 5 
minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. And I want to thank you 
for your hard work on this issue and so many other issues on 
the Oversight Committee, and I do want to say that I not only 
have great personal affection for the gentlelady from New York, 
but I also have great respect for her, and I would welcome 
every opportunity to work with her on whatever issue she is 
working on.
    Ms. Emerson, with--I want to follow up on what District 
Attorney Buck brought up with respect to--to your place of 
employment. Do you want to hazard a guess why women and men go 
into law enforcement?
    Ms. Emerson. To serve their country.
    Mr. Gowdy. Yes. More specifically, what would you say? What 
draws women and men to law enforcement?
    Ms. Emerson. At DHS?
    Mr. Gowdy. Just in law enforcement in general.
    Ms. Emerson. My thought is to protect the homeland, to 
follow--to enforce the laws.
    Mr. Gowdy. Right.
    Ms. Emerson. Do the right thing.
    Mr. Gowdy, Respect for the rule of law?
    Ms. Emerson. Yes.
    Mr. Gowdy. Because the law is the greatest unifying force 
that we have in our culture. It's the greatest equalizing force 
that we have in our culture, and it really is what separates us 
from lots of other societies. It provides order. It provides 
structure. It provides predictability.
    And I realize that your job may or may not afford you the 
opportunity to go out into the field and talk to the women and 
men who work. I don't want to judge your job. I don't pretend 
to know how many opportunities you have, but I can tell you 
District Attorney Buck in a previous life worked with law 
enforcement every day, and so did I. And I have a lot of 
friends that are still in Federal law enforcement.
    And it breaks my heart to see that any law enforcement 
entity ranks itself 314 out of 315 in terms of places to work. 
And I would just ask you to encourage--or I would encourage you 
to ask yourself whether asking men and women who went into a 
job to enforce the law not to enforce the law might possibly be 
responsible for that low rating.
    Because I can tell you every time I go home and I talk to 
the women and men who are still in law enforcement, nothing 
would diminish their morale quite like being asked to do the 
opposite of what they signed up to do.
    Mr. Archivist, as you know, I am biased towards you. So I--
my questions or lack thereof will reflect that bias. I worked 
with you in the past. You were gracious enough to come to my 
district where you were warmly received and wildly popular. 
They want you to come back and they want me to leave. They 
actually do. So I will say this. I am confident that you are 
going to identify whatever issues exist, and I am confident 
that you are going to work on those issues. I know you will.
    And I would also encourage you, because there's not a more 
fair minded, conscientious, hard working member of Congress 
than Mark Meadows, our chairman, and to the extent that you 
could privately meet with him. He was wildly successful in a 
former life, and he's wildly successful in this life. I know 
that you want that ranking to improve, and I know that he wants 
that ranking to improve, and to the extent that you all could 
work together to remedy that situation, I think it would be in 
all of our best interests.
    And with that I would yield whatever remaining time I do 
have to my friend from North Carolina, Mr. Meadows.
    Mr. Meadows. I thank the gentleman for his kind words, and 
I would debate one particular point in that, the tenacious 
spirit of the gentleman from South Carolina and the diligence 
of which he performs his actions are unmatched and unrivaled, 
and so I thank him.
    And I would concur, archivist, you have a near and dear 
place in our--in many of our hearts, and part of that is 
because of what is seen, you know, at the place that most of us 
visit. But it's just as important on the places that very few 
people visit, that backbone of what is imperative, is key, and 
so I thank you for being willing to work on that.
    Mr. Ehrlich, let me come to you. And I've got a couple of 
questions.
    Mr. Horowitz, is he currently listed as the managing 
director of CSB on your Web site?
    Mr. Ehrlich. Yes, sir.
    Mr. Meadows. So he is the managing director?
    Mr. Ehrlich. Yes, sir.
    Mr. Meadows. Okay. Why was his title changed to--from 
managing director, to lead investigator of Deepwater Horizon 
just before our last hearing and now it's been changed back? I 
don't understand that.
    Mr. Ehrlich. I don't think it was changed before the last 
meeting, sir. It was my understanding that he was given that 
title relative to a functional responsibility and that specific 
project. And his title of managing director hasn't changed 
since 2010.
    Mr. Meadows. So, you changing it--so it never changed from 
managing director to that particular title and then back. Is 
that your testimony here today?
    Mr. Ehrlich. I believe one is a functional title and the 
other one is the organizational title.
    Mr. Meadows. So he carries both of those titles.
    Mr. Ehrlich. I'm not sure how much longer he's going to 
carry the title relative to Deepwater because that project is 
nearing close.
    Mr. Meadows. Okay. So was that the reason he was moved from 
SES to GS-15--why was he moved? Why was his status changed?
    Mr. Ehrlich. Well, he was a temporary SES as I understand 
it. And when the chair stepped down, he went back to a GS-15.
    Mr. Meadows. Why?
    Mr. Ehrlich. I think that was his wishes.
    Mr. Meadows. Oh. So we're letting him decide what he gets 
to do?
    Mr. Ehrlich. I didn't say that, sir.
    Mr. Meadows. What about the other 40 employees? Do we let 
them do that too?
    Mr. Ehrlich. Well, I with think with the SES issue it's a 
very special issue and----
    Mr. Meadows. So you're telling me an SES can say: I want to 
be a GS-15 tomorrow, and that's--the board just says: That's 
fine.
    Mr. Ehrlich. I think what happened was when--and I don't 
know all the government issues related to SESs, but I think 
when the chair stepped down, I don't believe that applied to 
him anymore.
    Mr. Meadows. All right. So what is the status of the search 
for a new managing director?
    Mr. Ehrlich. Dr. Horowitz is the managing director.
    Mr. Meadows. All right. So he's going to be it from here on 
out?
    Mr. Ehrlich. To the best of my knowledge. Yes, sir.
    Mr. Meadows. And so as a managing director, would he not 
have understanding of the employee morale issues?
    Mr. Ehrlich. I think he does have an understanding.
    Mr. Meadows. So why would he not be here today, then, if he 
has an understanding? Wouldn't he be in a better position than 
you, Mr. Ehrlich, that you've been a board member for 5 months? 
Wouldn't he know better than you would know?
    Mr. Ehrlich. We've talked about the issues, I think I can 
express the issues, and as I indicated, I am in a policy making 
position.
    Mr. Meadows. So what policies do you believe that are 
necessary in order to improve performance?
    Mr. Ehrlich. Well, we've looked at this work improvement 
thing, and we've got six particular items that we're putting 
policies and procedures in place for.
    Mr. Meadows. When did you start working on those policies 
and procedures?
    Mr. Ehrlich. And we're going to develop metrics against 
them to satisfy your initial request of an hour ago.
    Mr. Meadows. Right. So when did you start working on that? 
You say you've been working on that. So when did you start 
working on----
    Mr. Ehrlich. Well, I've been working on it with the 
committee, and they've been working on it for about a year now 
as I understand it.
    Mr. Meadows. So who specifically's been working on it?
    Mr. Ehrlich. One of our----
    Mr. Meadows. Who heads it up? What's their name?
    Mr. Ehrlich. Kara, you head that up. Don't you? Kara heads 
that up. She's one of our----
    Mr. Meadows. So should we swear her in for testimony and 
let her give testimony?
    Mr. Ehrlich. I think you'll have to take that up with her.
    Mr. Meadows. Okay. Okay. All right. Well, I'm go to----
    Mr. Ehrlich. It is fine with me.
    Mr. Meadows. It is fine with you? Okay. Well, good. We may 
come back there.
    I'll go to the gentlewoman from the Virgin Islands, Ms. 
Plaskett, for 5 minutes.
    Ms. Plaskett. Yes. Good morning, and thank you, Mr. 
Chairman.
    You know, I'm interested in the impact that these reports 
have and show. Well, rather what they show about the low morale 
among employees. And specifically, low morale to me is an 
outcome of leadership and an outcome of mechanisms that have 
been put in place for employees to feel that the workplace is a 
great place to work.
    Mr. Ehrlich, I wanted to ask you about employees repeatedly 
expressing concern that the leaders aren't responsible stewards 
of their positions, and that they don't listen to employees' 
concerns. That's something that's been in the report.
    How do you think employees can expect to best fulfill their 
work requirements when they don't feel that their leaders are 
not steering them in the right direction or don't understand 
the jobs that they themselves have?
    Mr. Ehrlich. Well, I think that attitude has to be changed, 
and it is changing. We've obviously lost a chair. That takes 
its share of trauma on the organization. We made it known that 
we're going to change issues, and those--those attitudes have 
to be changed, and they will change over time, but they're not 
going to change overnight.
    Ms. Plaskett. So do you think that just changing--putting 
another individual in place does that, or what mechanisms and 
what programs have been done?
    Mr. Ehrlich. It's not a matter of putting one more person 
in place. It's a matter of changing the culture.
    Ms. Plaskett. And what specifically have you done to do 
that?
    Mr. Ehrlich. Well, first of all, we recognize and let our 
folks know that we appreciate, we value, and we understand the 
risks to which they put themselves every time they go out on an 
incident. We care about them. We care about their families. We 
care about their family values. That is very important.
    Ms. Plaskett. But how is that different than--I'm sure you 
expressed that to them in prior years as well. I can't imagine 
that you wouldn't have done that. So how are you doing it 
incrementally different now than previously?
    Mr. Ehrlich. I can't speak to prior years. I've been there 
basically since the first week of January, but I know that--and 
I expressed this to the chairman. I have sat down with every 
employee of the agency, both in Washington and in Colorado, and 
talked about issues, and tell them what's important to me and 
tell them the directions we're going in. All right? And it's 
going to take time to change some of those attitudes around. 
But I truly believe we're going to change them.
    The chairman asked for measurable metrics down the road. 
We're going to get them for him.
    Ms. Plaskett. Okay.
    Mr. Ehrlich. And I assure you that you're going to see a 
change in the way people feel about the job.
    Ms. Plaskett. But you have metrics in place which you 
believe are going to be driving the change of the culture?
    Mr. Ehrlich. We have a list of issues that are being worked 
on from which we can derive a dashboard and metrics.
    Ms. Plaskett. Great. I--because I believe that if you can't 
measure it you can't change it.
    Mr. Ehrlich. I have no argument with that, ma'am.
    Ms. Plaskett. Great.
    Ms. Emerson, you of course are here with one of the largest 
agencies which, in my mind, started off in a difficult position 
because it was so many different components from so many 
different places being put together very quickly. I actually 
was in part of the leadership team at the Department of Justice 
when Homeland Security was put together, and I understand how 
this has been--this is a very young agency that is doing one of 
the most critical works that our country needs right now.
    So one of the things, you know--and when we talk about the 
low morale that's present in Homeland Security, and my 
colleagues, of course, have talked to immigration and illegal 
immigration and the policies that may be with regard to 
immigration, and I don't think that it's the policies of the 
administration or the policies of this Congress which drive 
people to necessarily like or do not like their job. I think 
that things like sequestration and us not being able to pass a 
bill that would allow individuals to continue working at 
Homeland Security are the things that cause people to feel at 
risk about their job and have additional stress in being on one 
of the front lines.
    We had the director--Secretary Saldana here at a previous--
several weeks ago talking about the enforcement priorities. 
That there are 7,300 personnel of ICE that identify and 
apprehend convicted criminals, remove aliens, detain aliens, 
supervise alternatives. This is a large job that they're 
working on.
    My district, the Virgin Islands, is considered now the 
third border in terms of illegal guns, drugs, as well as 
immigrants, undocumented immigrants, coming into this country.
    And so I wanted to ask you that how you are combating the 
issues of personnel and having enough individuals to be able to 
do the job.
    Ms. Emerson. Thank you. Our employees have difficult jobs, 
as you were describing them. Those are very challenging 
positions, and actually we do a very good job recruiting high-
quality diverse workforce at DHS, and then I was saying earlier 
our attrition rates are low. So our employees are extremely 
dedicated to their jobs. They do what it takes to get the job 
done. So in terms of recruiting, hiring, retaining, DHS does a 
good job there.
    Do we have more work to do in employee engagement? You bet. 
And our Secretary who was here today and the Deputy Secretary 
have made this a number one priority, starting out with 
themselves. Increasing communication. Getting out with the rank 
and file. Holding all employee meetings. Meeting directly with 
the senior executive service. They've done that on two 
occasions.
    Ms. Plaskett. And do you believe that you've coalesced to a 
real agency from one that has come from disparate and different 
agencies coming together?
    Ms. Emerson. Yes. And, actually, I was at Department of 
Justice during that time too when--when we were putting 
together Homeland Security, and it was a very big event, but it 
is coming together. We have--employees are extremely dedicated 
to the mission of protecting the homeland.
    I'd like to mention that the Secretary and Deputy Secretary 
also together held the first awards ceremony for our DHS 
employees. Over 300 of our employees were recognized. I think 
that goes a long way. In addition to that, they have required 
component heads and executives to recognize and say thank you 
to our employees for those very difficult jobs that they do.
    Ms. Plaskett. Thank you.
    Mr. Meadows. I thank the gentlewoman.
    The chair recognizes the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. Okay. I'll ask a couple questions here, Mr. 
Ferriero. About how many employees do you have at the National 
Archives?
    Mr. Ferriero. Just under 3,000.
    Mr. Grothman. Wow.
    Mr. Ferriero. In 44 facilities--46 facilities across the 
country.
    Mr. Grothman. Okay. Do you have ever keep track like 
compared to other agencies how many employees, I guess, leave 
prematurely? You know, turn over not normal retirement age.
    Mr. Ferriero. Our attrition rate is comparable to other 
Federal agencies except in the area of student employees where 
we have been in the past heavily reliant on student help, and 
that turns over faster than--than regular employees.
    Mr. Grothman. Yeah. Among regular employees, like out of 
every, whatever 100, how many leave every year? Do you know?
    Mr. Ferriero. Between 7 and 8 percent.
    Mr. Grothman. Okay. Do you ever do followup and find out 
why they're leaving?
    Mr. Ferriero. Our--we do exit interview, yes. Very often 
it's better opportunities. We have tremendous placement of 
our--especially of our archivists in other Federal jobs. So we 
do a lot of training, and people take those skills and go to be 
records managers in other agencies, for instance.
    Mr. Grothman. Okay. Thanks. Maybe we'll ask this same 
question of Mr. Goldenkoff. You know, how many--first of all, 
how many employees do you have?
    Mr. Goldenkoff. About 3,000 in about a dozen different 
installations across the country.
    Mr. Grothman. Same thing. And we'll give you the same 
question. What's your turnover among--turnover by, you know, 
not retiring but non-retirement age.
    Mr. Goldenkoff. Resignations. Offhand I don't know. I do 
know that it's very low, and those people that do leave, it's 
typically, though, for more personal reasons. It's not 
dissatisfaction with the agency. It's more because the spouse 
got a job in a different location or they just decided to 
change careers.
    Mr. Grothman. Okay. So neither of you feel that there's a--
if your employees are unhappy, it's not unhappy--so unhappy 
that they're leaving.
    Mr. Goldenkoff. That's correct. It's not forcing them to 
leave. We really go to great lengths to keep our employees 
happy and motivated, and it is something that we also track 
very closely.
    We also do exit interviews, and we also talk about 
engagement. It really is part of our culture, as a matter of 
fact. We try and bring in all employees, no matter what level, 
and make them feel really part of the team. Actually have a--
she's still here--one of our--an intern who feels so motivated 
that helped out with this report and has come back to see the 
hearing.
    Mr. Grothman. I see she's got a nice smile on her face. So 
she certainly looks satisfied. There she is. Very good.
    And Mr. Ferriero was shaking his head. As I unfairly asked 
two people a question simultaneously, he was shaking his head, 
but now I'll yield the rest of my time to the--Congressman 
Meadows.
    Mr. Meadows. Thank you, Mr. Grothman.
    Ms. Emerson, I want to come back to you on one issue, and 
because of the volume of employees that you have and--would it 
be possible or are you willing, let me put it this way. It's 
possible. Are you willing to look at exploring of taking maybe 
a smaller snapshot within the umbrella of DHS to look at 
performance on perhaps lumping two or three agencies together. 
I think your testimony was you had 22 different areas of 
responsibility. Is that correct?
    Ms. Emerson. That's correct.
    Mr. Meadows. And so would you be willing to look at maybe 
putting those and bundling those together where we can start to 
see the worst of the worst under the DHS umbrella, and I think 
the GAO can help you on that. Is that correct, Mr. Goldenkoff?
    Mr. Goldenkoff. Well, that is correct.
    Ms. Emerson. Well, we have been working very closely 
together, and I would like to thank GAO because they've come. 
They've helped us with best practices. We worked hand in hand--
in fact, employees----
    Mr. Goldenkoff. We made several recommendations to DHS, and 
they've been making progress on at least some of the 
recommendations.
    Ms. Emerson. In fact our leadership, the Secretary and the 
Deputy Secretary and I myself have been over to GAO to meet 
with their leadership. So, we are working very closely 
together.
    Mr. Meadows. Well, in terms of that benchmark that I asked 
you for earlier, perhaps let's break that down so that we can 
look at--you know, give you credit for the good stuff you're 
doing and maybe focus more emphasis on those other areas 
because, as you--you know, over 200,000 employees, it gets very 
difficult. You know, it's like turning a ship. It would be very 
difficult than what Mr. Ehrlich has to deal with with 40 
employees, and so I'm about to go to the gentleman from 
Missouri, but, Mr. Ehrlich, I want to ask you, who decided that 
you should be the one to testify here today? Because obviously 
you were not the one we requested. We requested Mr. Horowitz. 
So who decided that?
    Mr. Ehrlich. Well, general counsel felt that there should 
be a pass from the organization, and I volunteered to be here, 
sir.
    Mr. Meadows. Okay. So were--was that in consultation--so 
your counsel. Was that in consultation with the other board 
members?
    Mr. Ehrlich. I let them know that I was doing it, and they 
were welcome to come. Yes, sir.
    Mr. Meadows. All right. So they were willing to come and 
declined to come? So is that what you're saying is, is that you 
drew the short straw?
    Mr. Ehrlich. No. I volunteered. They chose not to come.
    Mr. Meadows. So if we called them----
    Mr. Ehrlich. I can't speak to their----
    Mr. Meadows. If we called them, they will say that they 
were given the opportunity to come and declined. Is that 
correct? Is that your testimony?
    Mr. Ehrlich. They were given the opportunity to come.
    Mr. Meadows. And they declined. Is that your testimony?
    Mr. Ehrlich. They're not here, sir.
    Mr. Meadows. Is that your testimony?
    Mr. Ehrlich. Yes, sir.
    Mr. Meadows. Okay. Thank you.
    Mr. Ehrlich. And I'm here.
    Mr. Meadows. I will recognize the gentleman from Missouri, 
Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman, and let me thank all the 
witnesses for being here today.
    Agency leaders can and must use the resources at their 
disposal to build inclusive, motivating, and productive work 
environments. However, we must recognize that Congress has 
repeatedly asked these agencies to do more with less. This is a 
problem within itself and no doubt prevents agencies from 
operating at their full potential.
    Mr. Ferriero, according to a recent NARA staffing report, 
NARA's Federal Record Center Holdings have grown from 14.4 
million cubic Federal--feet of records in 1985 to 29.5 million 
cubic feet in 2013. Despite a doubling in the workload, you 
have about half the employees you had in 1985.
    Has NARA received sufficient funding to keep pace with the 
rapidly increasing volume of documents under it's management?
    Mr. Ferriero. The ability for us to do more with less has 
reached the--its--we're at the point where we can't do more 
with less. We have not--the appropriate level of staffing to do 
the job that we need to do.
    Mr. Clay. And how has that affected employee morale?
    Mr. Ferriero. It certainly contributes to--we have a--we 
have a staff who ranks their passion for the job at something 
like--98 percent of the staff love what they're doing and feel 
that they're doing important work, and the fact that they can't 
do the quality of work that they've done in the past really 
hurts.
    Mr. Clay. And so, Mr. Chairman, this raises a valid point. 
When we think about the ratings of these agencies, if we as the 
legislature don't give the proper resources to adequately pay 
employees, to adequately fund these agencies, who happen to be, 
for the most part, domestic agencies, even DHS, then we are 
doing a disservice to the agencies also. And I just want to 
bring that up, not to debate that issue here. This isn't the 
place for it, but it also raises a real issue, Mr. Chair.
    Mr. Meadows. I would agree.
    Mr. Clay. Thank you.
    Ms. Emerson, DHS was created through a merger of 22 
agencies following the 9/11 attacks. Today DHS is tasked with 
securing our airports and patrolling our waterways and borders, 
among other vital responsibilities, yet my colleagues across 
the aisle have made DHS funding the object of political 
gamesmanship. What are the inherent challenges or managing a 
department tasked with such a diverse array of 
responsibilities? What are some of your challenges?
    Ms. Emerson. Well, you mentioned one of the big ones, the 
budget uncertainty. That is a challenge that our employees had 
to deal with just recently, and that, quite honestly, can have 
an effect on morale. So anything you all can do to help us in 
that area, we'd really appreciate. It wasn't just--you know, it 
wasn't the entire government this time going through that. It 
was DHS. And that's hard for our employees who work hard every 
day to protect this country. As you were pointing out, our 
employees do an amazing job.
    Mr. Clay. Sure.
    Ms. Emerson. They have a lot of work that they deal with 
and those jobs are difficult. But they come to work every day 
and give 110 percent.
    Mr. Clay. Yeah. And hopefully our colleagues are listening 
to you all's concern and the points that you raise today.
    Mr. Goldenkoff, government-wide Federal employee engagement 
has declined 4 percentage points from 2011 to 2014. However, 
the majority of Federal agencies have either sustained or 
increased employee engagement levels during this time. NASA, 
FIDIC, Service Transportation Board and U.S. Trade and 
Development Agency all topped at 2014 PPS best places to work 
rankings.
    Additionally, the Department of Education's engagement 
levels increased at an estimated 56 percent.
    Based on your research, what are theses agencies doing 
right?
    Mr. Goldenkoff. Well, we found several commonalities. One 
starts with leadership. That's critical. But in terms of some 
specific drivers, we found things like having constructive 
performance conversations with your staff. That was very 
important. Career development and training. Having effective 
work and being very supportive of work/life balance programs. 
An inclusive work environment. Showing respect and support for 
diversity and inclusiveness. Employee involvement. And then 
communication from management.
    You know, and I just would like to kind of link this to 
something that Ms. Maloney said a little while back is that so 
many of these drivers of engagement, they don't cost anything, 
or they cost so little. You know, it's being supportive. It's 
listening to your people, valuing what they have to say. It's 
not everything. There are--you know, there's more to be been 
done. But at lease it's such a very good starting point.
    One of the things that, you know, I'm reminded of at GAO, 
when we came back to work after the shutdown, the head of our 
agency, Mr. Dodaro, he was out in front of the building 
welcoming people back. People are still talking about that to 
this day. So it's--sometimes it's very little things like that. 
It many cases it's things that we learned in kindergarten that 
we just sometimes forget about them in just the busyness of 
day-to-day operations, fighting the fires that we all have to 
face every day. We sometimes forget those little personal 
touches that can go a long way. Just saying thank you in a 
very--don't send it out in an email. Show up in someone's 
office and say, you know, you did a great job with----
    Mr. Clay. Thank you, and my time is up, but apparently 
respect goes a long way, so appreciate it, Mr. Chairman.
    Mr. Meadows. I thank the gentleman from Missouri.
    I recognize the gentlewoman from New York, Ms. Maloney, for 
a closing statement.
    Mrs. Maloney. Well, I want to thank the chairman for 
calling this hearing. Quite frankly, at first I thought it was 
ridiculous. I mean, what do you mean the first--worst agencies. 
But coming to it, I think it's really very important, and I 
think it's extremely important that there is a big disconnect 
in the--that many of you are testifying that everybody's happy 
and they're all giving 100 percent, but when they're filling 
out their forms, they're telling a very different story, and I 
think that we have a lot of work to do because we really set 
the leadership for the country.
    Many people look to the Federal Government for leadership. 
And I think that the GAO is a wonderful resource. And in your 
testimony, he identified six factors that correlated with 
higher employee engagement levels, and I'm going to read them 
to you, and I would like to ask all of you to go back to your 
agencies, and in the next month try to implement them, and 
write us back on what happened. Or maybe the chairman will call 
you back in a month or two on that you took these five--six 
recommendations and put them to work.
    I would add a seventh one, and that would be to look to 
promote from within so that people know they have a career 
path, that they have a future at these wonderful agencies, that 
they--that they're going to have a--be looked at on their 
merits and if they understand their material and produce a good 
work product that they have a shot of heading this agency. I 
would get that message out.
    And they're very simple. It says, ``Having constructive 
performance conversations. Career development and training. 
Work/family balance. Inclusive work environment. Employee 
involvement and communication from management.'' And I would 
say if you took those guidelines, that they put a lot of 
research in putting together and implemented it for a month or 
two, I think you'd see some differences, and I'd like to hear 
the response if you get back to the chairman. Try it for a 
month. Try it for two months. And see what the difference is.
    And I want to say to Homeland Security, to Ms. Emerson, I 
helped write the legislation that created the Department of 
Homeland Security. It grew out of the biggest disaster in the 
history of our country. Three thousand people were killed 
because they were Americans. Woke up and went to work one day, 
and thousands and thousands more are dying and sick because of 
their exposure to the deadly toxins at the work site.
    But out of that I think came the best work I've ever seen 
in Congress. A commission was set up that was Republican and 
Democrat, headed by two outstanding people, former Governor 
Kean from New Jersey, a former member of Congress Hamilton, and 
they made an agreement they would not do anything unless they 
involved their counterpart. They issued a report called the 9/
11 Commission Report that sold more copies than Harry Potter. 
Literally. Sold more copies than Harry Potter. Most read 
document in the history of our country.
    I nominated them for the National Book Award. They didn't 
win. They should have, though. And it gave an outline of what 
was wrong. And the first outline was we were way behind in our 
intelligence in homeland security. We had 22 different 
agencies, and we took that recommendation and created the 
Department of Homeland Security. You're the most important 
department in our entire government. If we can't protect our 
President, our workers, our people, then we can't do anything. 
Your department's the most important department in the entire 
government. And you took 22 different agencies that weren't 
talking to each other on intelligence and other areas and are 
forcing them to talk, share information, and protect this 
country, and bottom line, you're doing a great job. We haven't 
been attacked again. But people are trying.
    In the great State of New York, they've tried 14 different 
times, but because of the work of your agency and the locals, 
we prevented it. We prevented it. We are preventing the attacks 
on our great country.
    And I mean what I said. I'd like you to take your workers 
down to 9/11. When they see what happened that day and hear the 
stories of the families of the people that were killed, and 
hear the stories of the SEALS and Governor Kean and Hamilton 
and others that worked to put these pieces back together again, 
and to make our country even stronger, they should have the 
best morale in the whole--whole government.
    So I think the chairman is telling me he's serious about 
this. He's going to be reading these reviews, and he wants to 
see some changes, but I think we have a responsibility in 
Congress because the way we treat people nominated for 
positions and people that are working in government, I think is 
tremendously disgraceful.
    And I want to mention a gentleman I called in my office, 
Anthony Weis. He was recommended for a department--a job in 
Treasury. I never met him. I don't know him. But he was 
vilified. He was vilified that somehow he caused the 2008 
economic meltdown on Wall Street. He was basically in research 
and analysis and advice. He wasn't trading. He wasn't part of 
any mistakes that were made, but they said because he was from 
a firm--this firm wasn't even involved in Wall Street or the 
trades or that, but he was in a firm, in this case, doing reach 
and advice. He wasn't fit to serve.
    And every now and then I think we're a strong country 
because we have a strong private sector. We have a public 
sector, and if we vilify people who understand how they can 
volunteer and help the public sector, we're making a big 
mistake in this country.
    You know, he told me there were demonstrations in front of 
his house, petitions against him. His children are saying: Why 
are they saying you're a horrible person that caused the 
financial crisis and you can't serve your government? You know, 
it might be good to have somebody who understands finance to 
serve in finance.
    I use that as one example. We could also talk about Loretta 
Lynch, a distinguished, accomplished leader in the Justice 
Department her entire life. Her appointment being held up. No 
one says anything bad about her, but her appointment's held up.
    But often people are vilified if they want to serve in 
government. If we continue that, no one is going to want to 
serve. It's absolutely wrong. And I think it's very unfair how 
we vilify Federal employees oftentimes. There's a problem, it's 
the Federal employees fault, and instead of trying to work 
together to find the solutions.
    Mrs. Maloney. I think you're great. We need to improve. But 
you have a great job to do. And I think you ought to go back to 
your agencies, turn this around and help us move forward in a 
positive way. Because we have the greatest country and we don't 
have the greatest country without the greatest workforce. And 
you're part of it.
    I think part of the problem, Mr. Chairman, quite frankly, 
is that we in Congress and the public and other people vilify 
public servants, and they don't deserve it.
    Mr. Meadows. Well, today is the start of trying to get at 
the root of that problem, Ms. Maloney. And that's why I felt 
like it was important that we held this hearing.
    I will say to each one of you I am a tenacious and 
unforgetting individual. I make notes and I remember things--
well, I reread my notes.I don't remember. And I can forget the 
trash if my wife asks me to take it out.
    But I will say this, that I do want you to report back. I 
do want to see progress. I do want us to not make this a 
hearing that goes away. Each and every year we will have this. 
I'm hopeful that the three of you won't be on this list next 
year and it will be somebody else that we bring in.
    But, in the meantime, we will be checking with you.We will 
be asking--the committee will be asking you for additional 
information to provide. I thank each of you for your testimony.
    But I would be remiss in not thanking the committee staff 
on both sides, but the committee staff that works so incredibly 
hard. You know, this goes off like clockwork not because of my 
preparation, but because of theirs. And so I want to thank 
them.
    And for those that are streaming and that are watching here 
today, thank you for your service. Thank you truly for being 
willing to be public servants.
    And if there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:03 a.m., the subcommittee was adjourned.]





                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
